                                  I      am pleased to submit the Department of Energy (Department) Office of
INSPECTOR GENERAL'S MESSAGE


                                        Inspector General (OIG) Semiannual Report to Congress for the period ending
                                  September 30, 2003. This report, issued in accordance with the provisions of the
                                  Inspector General Act of 1978, as amended, represents the OIG’s accomplishments in
                                  identifying areas of Department operations most vulnerable to waste, fraud, and
                                  mismanagement.

                                  As noted by the special logo appearing throughout this report, the Inspector General
                                  community is celebrating the 25th Anniversary of the Inspector General Act of 1978.
                                  We share this special occasion with the 57 cabinet, other executive branch, and
                                  independent agency Offices of Inspector General. As a historical note, the Department
                                  of Energy OIG actually existed prior to passage of the Inspector General Act, having
                                  been formed as part of the Energy Organization Act of 1977, and the office operated
                                  under this separate authority until 1988 when it was incorporated under the Inspector
                                  General Act.

                                  This Semiannual Report details our most significant activity during the reporting period
                                  and is organized by OIG-identified management challenge areas. These areas include:
                                  Contract Administration; Environmental Cleanup; Information Technology
                                  Management; National Security; Performance Management; Stockpile Stewardship;
                                  and Worker/Community Safety. Notable work outside the above-mentioned challenge
                                  areas is presented in the section of this report entitled, “Other Significant
                                  Accomplishments.”

                                  Finally, I would like to express my heartfelt appreciation to all of the OIG employees
                                  who exhibit continued professionalism, dedication, and commitment to the mission and
                                  work of the OIG. On behalf of the American taxpayers, I thank this committed OIG
                                  staff for their many successes during this reporting period.




                                                                             Gregory H. Friedman
                                                                              Inspector General




                              Additional information on the OIG, including the full text of its public reports and Department
                              management’s comments, can be found on the OIG website – www.ig.doe.gov.
TABLE OF CONTENTS
Management Challenge Areas
- Contract Administration              1
- Environmental Cleanup                8
- Information Technology Management   16
- National Security                   18
- Performance Management              24
- Stockpile Stewardship               26
- Worker/Community Safety             30
Other Significant Accomplishments

- Administrative Safeguards           32
- Congressional Responses             38
- PCIE Audit Committee                38
- PCIE Awards                         38
- Results                             40
- Qui Tams                            41
- Management Referral System          41
- Intelligence Activities             42
- Legislative and Regulatory Review   42
- Hotline System                      43
- Reports Issued                      44
- Statistical Information             50
                        # CONTRACT ADMINISTRATION
                        Internal Control Weaknesses at the Los Alamos National
MANAGEMENT CHALLENGES


                        Laboratory Result in $14.6 Million in Potentially Unallowable
                        Costs
                        In light of recent criticism regarding the operation of the Los Alamos
                        National Laboratory (LANL) by the Department’s contractor, the
                        University of California, the National Nuclear Security Administration
                        (NNSA) requested the OIG to perform an audit of costs incurred. As a
                        result, the OIG conducted an audit to determine the allowability of $5.2
                        billion charged to the LANL contract for Fiscal Years 2000 through 2002
                        and to evaluate relevant controls.

                        The OIG review identified about $14.6 million of potentially unallowable
                        costs that were charged to the LANL contract, including: (1) $3.7 million
                        for “working” meals; (2) $7.4 million for travel costs in excess of contract
                        limits; and (3) $3.5 million for an internal audit function that did not meet
                        Department requirements.

                        As part of the OIG review, we also identified a series of internal control
                        weaknesses that contributed to an environment in which these potentially
                        unallowable costs could be incurred and claimed. Specifically, we found
                        control weaknesses in the following areas: Laboratory audit function,
                        financial system reconciliation, payroll and travel approval processes,
                        financial management, personnel turnover, and financial system review
                        and approval. Further, the OIG identified a significant backlog in the
                        completion of required audits of LANL subcontracts.

                        The OIG recommended that NNSA recover unallowable costs and require
                        the contractor to improve internal controls to help ensure that incurred
                        costs are allowable. NNSA generally agreed with the audit
                        recommendations and indicated that corrective actions had been taken or
                        were planned. In response to the control weaknesses, the LANL
                        contractor has announced an aggressive corrective action plan. (IG-0596)




                                                                                                     1
                                             Control Weaknesses Relating to the Advanced
                                             Mixed Waste Treatment Facility Contract
                                             In 1996, the Department entered into a $912 million fixed-
                                             price contract for services associated with a planned
                                             Advanced Mixed Waste Treatment Facility (AMWTF) at
                                             the Idaho National Engineering and Environmental
                                             Laboratory (INEEL). The bulk of this amount, $569
                                             million, was for construction of the AMWTF and its
                                             processing equipment. Although construction of the
                                             AMWTF was completed in December 2002, as of June
                                             2003 the facility was not yet fully operational. The OIG
                                             performed an audit to determine whether the Department
                                             was paying a reasonable price for the design, construction,
                                             and operation of the AMWTF.

                                             The audit found that the Department had not acted to
                                             minimize costs associated with the AMWTF. Specifically,
                                             the Idaho Operations Office (Idaho) did not seek price
                                             adjustments after several major waste treatment
                                             technologies initially proposed by the contractor were
Artist Concept of the Advanced Mixed Waste   eliminated from the scope of work. Idaho officials focused
Treatment Facility at INEEL.                 primarily on achieving the intended end product at the
                                             agreed-to total price. This approach overlooked the fact
                                             that major facility components, which were reflected in the
                                             original estimate of construction costs, had been deleted
                                             from the project and should, in our judgment, have been
                                             the subject of an equitable price adjustment. The AMWTF
                                             contract included provisions for equitable price adjustment
                                             under circumstances such as these.

                                             The OIG estimated that without an equitable price
                                             adjustment to reflect scope changes, the Department could
                                             pay at least $90 million more than necessary under the
                                             AMWTF contract. Accordingly, the OIG recommended
                                             that Idaho work to obtain an equitable price adjustment
                                             commensurate with reductions in the scope of work to be
                                             performed under the contract. It was also recommended
                                             that management controls over contract pricing be
                                             strengthened.



2
Management generally concurred with the finding and recommendations in
the report and agreed to perform an analysis to determine if appropriate
adjustments were made to the contract based on scope reductions. In
addition, management agreed to improve management controls in this area.
(IG-0622)

Weaknesses Found in Inventory Management at Selected
Department Laboratories
This audit was conducted to determine whether the Department was
properly managing sensitive equipment at three contractor-operated
laboratories —Lawrence Livermore National Laboratory, Lawrence
Berkeley National Laboratory, and Stanford Linear Accelerator Center.

The OIG found that at each of these sites, management was ultimately able
to locate virtually all of the items of sensitive equipment we sampled. In
numerous cases, however, the items were not subjected to inventory
controls and, as a consequence, contractor personnel had to make
exceptional efforts to locate and retrieve the property. The OIG also noted
opportunities to improve controls and accountability. For example, each
site had sensitive items that were not properly marked as Government
property; property records were not always updated to reflect custody
changes when employees were reassigned or terminated; and sites did not
always ensure that items reported as stolen were entered into law
enforcement recovery databases.

The OIG recommended that Departmental officials provide guidance to
specifically define the categories of sensitive equipment to be accounted
for by contractors and ensure that contractors follow sound property
accounting management practices. Management generally agreed with the
report and recommendations. (IG-0606)

Internal Control Weaknesses in the NNSA’s Office of
International Material Protection and Emergency Cooperation
The OIG received allegations regarding the Material Protection, Control
and Accounting Program managed by the NNSA’s Office of International
Material Protection and Emergency Cooperation (IMPEC). The
allegations concerned the creation of an advisory committee, the Board of
Visitors, in violation of the Federal Advisory Committee Act (FACA) and
the inappropriate handling of payments from an unauthorized sublease for
office space to support the program in Moscow, Russia.

                                                                        3
    The OIG conducted an inspection to determine if: (1) the Board of
    Visitors advisory committee was established in conformance with FACA
    requirements; and (2) payments for the sublease for office space in
    Moscow were appropriately handled. The inspection concluded that the
    Board of Visitors was not established in conformance with FACA
    requirements. It also was determined that IMPEC officials did not adhere
    to advice from the Office of the General Counsel when establishing the
    Board of Visitors and did not obtain required approval to compensate
    Board of Visitors members.

    In addition, it was revealed that a subcontractor had improperly kept about
    $14,000 in payments resulting from subleases of office space in Moscow.
    When this came to the attention of the prime contractor, the contractor
    took appropriate action to recoup these funds. The review also found that
    Department contractor officials did not adhere to internal procurement
    policies and procedures when contracting for support to the Board of
    Visitors and when entering into the primary lease for the office space in
    Moscow.

    The OIG made several recommendations to management to strengthen
    internal controls in the advisory board establishment process and to ensure
    future procurements adhere to procurement requirements. Management
    agreed with the OIG’s recommendations and conclusions. (IG-0593)

    Utility Leases at Oak Ridge Could Be Improved to Protect
    Department Interests
    In 1998, the Department’s Oak Ridge Operations Office entered into a
    series of utility leases with the Community Reuse Organization of East
    Tennessee (CROET). Under the lease terms, CROET was to manage a
    variety of Government-owned utility systems, including steam,
    compressed air, nitrogen, water, and natural gas, at the Department’s East
    Tennessee Technology Park (ETTP). By agreement, the Department
    leased its utility systems to CROET at no charge. In turn, CROET was to
    contract with a third party with utilities expertise to operate and maintain
    the utility systems for the Department. Department officials believed that,
    using this approach, CROET could operate the systems, improve site
    infrastructure, and sell the utilities back to the Department, as well as to
    other ETTP tenants, at significant savings.




4
The OIG conducted an audit to determine whether the utility system leases
at ETTP have been managed to improve site infrastructure and reduce costs
to the system. The OIG concluded that the Department now pays about the
same as it did before the leases were agreed to for Government-owned
utility systems costs even though its utility usage has declined over the same
period. Based on our review, the OIG questioned $6.9 million in lease
costs, including costs for commodity markups, improperly used repair and
rehabilitation funds, interest on unused funds, and tenant bad debts.

The Department did not agree with the audit’s estimate of lease costs.
Management did, however, concur with the OIG’s recommendation to
perform a detailed analysis of lease provisions and to restructure the lease
agreements as necessary to protect the Department’s interests. (IG-0609)

Restructuring Activities at the Department’s Kansas City Plant
Will Not Achieve Intended Results
Consistent with the Department’s intention to study options for
consolidating production operations, the contractor operating the
Department’s Kansas City Plant submitted a plan to significantly reduce
floor space and workforce. Thereafter, the Department approved the plan,
estimated to cost $138 million to implement. The Department’s approval
was based on projected operational savings of $35.4 million per year.
Restructuring activities began in September 1999, with completion of the
project scheduled by the end of September 2005.

The OIG initiated an audit to determine if the Kansas City Plant’s
restructuring initiative would achieve intended results. The audit found that
the effort will not reduce the floor space of the Kansas City Plant as
intended. Less than half of the planned 600,000 square feet of floor space
will actually be transferred to the General Services Administration; and
rather than being reduced, current staffing levels remain the same as when
restructuring activities began. To date, the Department has incurred
$84 million in costs. Furthermore, it will not fully achieve the $35.4 million
annual projected savings, which was the basis for the project’s approval.
Because an additional $54 million is scheduled to be spent on this project,
we believe that the Department should reevaluate the viability of the Kansas
City Plant’s plan.




                                                                           5
    Management expressed general agreement with the recommendations, but
    had some concern with the OIG’s conclusions. Specifically, management
    believed that the project was still justified and would achieve a projected
    $30.9 million per year savings, recouping the cost of the project in less
    than 5 years beginning in Fiscal Year 2006. Management’s revised
    savings figures, however, in our judgment, are not supported by available
    documentation. (IG-0616)

    Idaho National Engineering and Environmental Laboratory’s
    Strategic Initiative Fund
    In Fiscal Year 2000, the INEEL established a Strategic Initiative Fund to
    pursue mission development opportunities by marketing its research,
    development, and engineering expertise to potential customers both within
    and external to the Department. The fund is financed through an indirect
    cost allocation assessed on all INEEL direct-funded programs. The OIG
    conducted an audit to determine whether INEEL’s use and distribution of
    costs associated with the Strategic Initiative Fund were appropriate.

    The OIG found that INEEL had used the Strategic Initiative Fund for
    questionable purposes. Specifically, the fund had been used to:
    (1) supplement the Laboratory Directed Research and Development
    (LDRD) Program; (2) pay for activities that should have been funded
    directly by program offices; and (3) pay for activities, such as advertising
    and marketing, that did not directly support INEEL’s primary missions.

    Further, the audit disclosed that the major programs providing funding to
    the Strategic Initiative Fund did not receive benefits commensurate with
    their contributions. For example, in 2002, Environmental Management
    contributed 68 percent of total funding, but received only 17 percent of the
    benefits.

    Regarding the use of Environmental Management funds, the audit findings
    were especially troubling given the Department’s emphasis on maximizing
    the efficiency and effectiveness of its environmental remediation program.
    In our view, any diversion of funds for other indirect or essentially
    unrelated purposes undermines this objective. In our judgment, the
    $24 million spent through the INEEL Strategic Initiative Fund between
    2000 and 2002 could have been used more effectively by the sponsoring
    program offices to meet mission requirements.




6
We recommended that the Acting Chief Financial Officer, in coordination with
the Under Secretary for Energy, Science and Environment, develop and
implement policies and procedures to prohibit the use of mission development
activities to supplement LDRD funds. We also recommended that the Manager,
Idaho Operations Office, take steps to clarify the terms of the contract for
operating INEEL as it pertains to mission development activities.

The Acting Chief Financial Officer stated that the contracting officer had
deemed the costs questioned in the report to be allowable. However, the
response indicated that management agreed to review Strategic Initiative Fund
uses to ensure the fund is used appropriately and that LDRD funds are not being
augmented. Based on results of the review, clarifying guidance will be issued
to other offices. In addition, Idaho agreed to clarify the terms of the site
contract pertaining to mission development activities.

Management’s review of the uses of the Strategic Initiative Fund is a positive
step forward. However, the examples cited in this report suggest to us that a
Department-wide policy is needed to define appropriate uses of mission
development funds. (IG-0601)

Internal Control Weaknesses in Firearms Inventory at the
Lawrence Livermore National Laboratory
The OIG conducted an inspection to determine whether internal controls over
firearms at the Lawrence Livermore National Laboratory (LLNL) were
adequate and whether LLNL’s firearms inventory was administered
appropriately.

While we were able to physically locate all firearms on LLNL’s inventory, we
concluded that internal controls over LLNL’s administration of the firearms
inventory needed improvement. Specifically, the inspection determined that:
(1) five firearms, which had been purchased over 10 years ago, did not have
property control numbers and were not listed in the property inventory; and
(2) LLNL was not conducting monthly inventories of firearms, as required by
Department policy.

Management agreed with the OIG’s findings and recommendations, and LLNL
officials indicated that they were taking prompt action to improve controls over
all firearms at the LLNL. (IG-0621)




                                                                                 7
                                                  # ENVIRONMENTAL CLEANUP
                                                  Infrastructure Improvements Needed at the
                                                  Department s Hanford Site
                                                  The Department’s Hanford Site was established in 1943 to
                                                  support the production of plutonium for the Manhattan
                                                  Project. Today, many of the site’s facilities and much of its
                                                  infrastructure have deteriorated and are operating beyond
                                                  design life. In October 2000, the Office of Environmental
                                                  Management required the Richland Operations Office
                                                  (Richland) to address these concerns by developing a site
                                                  infrastructure restoration plan. The plan was designed to
                                                  identify the site’s facility and infrastructure needs considering
                                                  current site conditions and capacities, the extent of deferred
                                                  maintenance, cleanup plans, and other missions.

                                                  The OIG conducted an audit to determine whether Richland
                                                  had developed and implemented an effective infrastructure
                                                  restoration plan for the Hanford Site. The audit determined
                                                  that between 1998 and 2002, Hanford’s deferred maintenance
                                                  had risen dramatically, from about $21 million to over
                                                  $186 million. Additionally, in addressing infrastructure
                                                  needs, Richland had not always followed established policy,
                                                  nor had it implemented an integrated system for managing
Hanford Site–A new roof structure is being con-   facility maintenance. Furthermore, the OIG found that
structed to safely enclose the 100-DR Reactor     without an adequate infrastructure to meet mission needs, the
Core.                                             Department risks being unable to complete the Hanford Site’s
                                                  cleanup mission safely and within established timeframes.

                                                  The OIG recommended that the Manager, Richland
                                                  Operations Office: (1) develop and implement a site plan,
                                                  consistent with Department and Environmental Management
                                                  policy, that fully identifies mission critical infrastructure and
                                                  prioritizes projects accordingly; (2) immediately address
                                                  maintenance and infrastructure restoration needs that could
                                                  compromise the health and safety of employees; (3) to the
                                                  extent possible, consolidate and integrate site infrastructure
                                                  systems to ensure consistency; and (4) work with Office of
                                                  Environmental Management at headquarters to ensure that



 8
required infrastructure repairs and upgrades are identified and funded consistent
with Environmental Management’s risk-based accelerated cleanup approach.

Management generally concurred with the audit finding, but only partially
concurred with recommendation 2, stating that it was not aware of any
infrastructure deficiencies that are critical to safety and health. (OAS-B-03-03)

Nevada Local Governments Improperly Use Federal Funds
Intended for Oversight of Site Characterization at Yucca
Mountain

The OIG conducted an audit to determine whether Nevada local governments
were using Federal oversight funds in accordance with the terms of the Nuclear
Waste Policy Act and annual appropriations language. The audit determined
that the Nevada counties reviewed improperly used oversight funds for
lobbying, litigation, coalition building and other activities unrelated to oversight
of the site characterization of Yucca Mountain or studying the impacts that
Yucca Mountain will have on local communities.

The OIG questioned costs totaling $3.3 million of the $7.2 million spent over a
2-year period. In addition, the counties had nearly $6.5 million in unexpended
funds, which included nearly $1.7 million in accrued interest. The accrued
interest was inappropriately used by the counties to augment local budgets. The
improper expenditures and accumulation of unexpended funds and interest
occurred because the Office of Civilian Radioactive Waste Management
(OCRWM): (1) did not monitor the counties’ program activities; (2) did not
provide funding to the counties based on expenditures as required by statute;
and (3) had not taken corrective action when deficiencies were previously
identified by independent auditors.

The OIG recommended that OCRWM recover the questioned costs,
unexpended funds, and interest earned. We also recommended that OCRWM
distribute funds based on expenditures, monitor the counties’ programs, require
annual certifications to include amounts expended, and resolve findings
identified by independent auditors.

Management generally agreed with the OIG’s recommendations, but requested
the opinion of the Office of the General Counsel concerning our
recommendation relating to the recovery of interest and unexpended funds.
(IG-0600)



                                                                                 9
                                             Opportunities Exist to Improve the Efficiency of the
                                             Department’s System for Disposing of Remote-
                                             Handled Transuranic Waste at the Waste Isolation
                                             Pilot Plant
                                             The Waste Isolation Pilot Plant (WIPP), located near
                                             Carlsbad, New Mexico, is the Department’s underground
                                             repository for defense-generated transuranic (TRU) waste.
                                             Most TRU wastes can be handled by workers using minimal
                                             specialized protective gear and is referred to as “contact-
                                             handled” TRU. TRU wastes with a surface radiation dose
                                             rate greater than 200 millirem per hour, however, must be
                                             handled using remote devices and is referred to as “remote-
                                             handled.”

                                             The OIG conducted an audit to determine whether the
                                             Department had established an efficient system for disposing
                                             of remote-handled TRU waste at WIPP. The audit concluded
                                             that opportunities exist for the Department to improve the
                                             efficiency of its remote-handled TRU waste disposal program
                                             over the next two decades.

                                             Specifically, the OIG disclosed that if current waste
                                             emplacement practices continue, by 2020 the repository, as
                                             now configured, will not be able to accommodate 980
RH-72B cask at the WIPP. This cask will be
                                             planned shipments of remote-handled TRU waste. The
used to ship remote-handled TRU waste to     Department has recognized the potential space problem and
WIPP for disposal.                           identified some alternatives, but has not yet formally planned
                                             for the resolution of this issue.

                                             It was also determined that improvements were needed in the
                                             integration and consistency of local treatment plans at several
                                             sites and the Department’s overall remote-handled TRU
                                             waste management plan. For example, according to the
                                             Department’s accelerated cleanup schedule, WIPP will
                                             receive about 180 shipments of the Hanford Site’s remote-
                                             handled TRU waste by 2012. However, Hanford only
                                             expects to send about 20 shipments by that date.




10
In addition, the OIG noted actions that the Department can take to improve
the efficiency of transporting TRU waste to WIPP. For example, the OIG
estimated that the Department could reduce the number of planned
shipments to WIPP by about 33 percent by optimizing the use of 10-drum
versus 3-drum shipping containers. Such action would have significant cost
savings implications.

Management disagreed with the OIG’s finding and recommendations and
took the position that recent improvements in established management
systems were sufficient to address issues as they arise. (IG-0613)

Inadequacies Found in the Idaho National Environmental
Laboratory’s Waste Reduction Program
In 1996, the Idaho Operations Office entered into a contract to construct the
Advanced Mixed Waste Treatment Facility (AMWTF) to characterize, treat
and package INEEL’s waste. The waste will eventually be transported to
the WIPP for final disposal. One of the primary goals of the contract was to
significantly reduce the volume of waste during the treatment process so as
to reduce the overall cost of transportation and disposal. Specifically, the
contract required that the waste in its original volume (65,000 cubic meters)
be reduced after treatment to about 22,750 cubic meters or no more than 35
percent of the original volume. The contractor will be penalized monetarily
if the volume of post-treated waste does not meet this performance
objective. The current contract value for this effort is $912 million.

An OIG audit determined that the contractor will not meet the Department’s
waste volume reduction goals. Based on current plans, the volume of
INEEL’s waste to be shipped to WIPP will only decrease by about 6
percent. Initially, the contractor will employ a variety of sorting,
repackaging, and compacting techniques to reduce the 65,000 cubic meters
by more than half. However, the treated waste will then be placed in “over-
pack” disposal containers, which will increase the volume to about 61,000
cubic meters. Thus, overall volume savings will be minimal.

Furthermore, the review found that the Idaho Operations Office’s planning
and oversight for the waste reduction project was inadequate. Additionally,
the contract for this project was unclear as to exactly how waste reduction
would be measured and had not been modified to reflect current
assumptions. As a result, WIPP may receive substantially more volume



                                                                         11
                                           than originally planned, and the Department could spend
                                           approximately $205 million more than expected to dispose
                                           of INEEL waste.

                                           The OIG recommended that the Assistant Secretary for
                                           Environmental Management develop a contingency plan
                                           reflecting the greater-than-anticipated volume of waste to be
                                           shipped to WIPP. We also recommended that the Manager,
                                           Idaho Operations Office seek to clarify the waste reduction
                                           goals and measures contained in the waste reduction
                                           projects contract.

                                           Management agreed with the OIG’s finding and
                                           recommendations and indicated that it had previously
                                           identified all of these issues in past reviews. (IG-0611)

                                           Redundancies Exist in Department Spent Nuclear
                                           Fuel Canister and Cask Development
                                           The OIG conducted an audit to determine whether the
                                           National Spent Nuclear Fuel (SNF) Program (National
                                           Program) has eliminated certain redundant technology
                                           development activities across the complex. The audit
                                           disclosed redundancies, specifically with regard to the
                                           development of canisters and transportation casks. We
                                           noted that the Department’s Hanford Site, the Office of
                                           Naval Reactors, and the National Program simultaneously
                                           developed three different SNF canisters for interim storage
                                           and related tasks. In addition, the Office of Civilian
                                           Radioactive Waste Management and the Naval Reactors
INEEL-test loading of shielded canister/   program were independently acquiring different casks in
transport cask.                            anticipation of transporting the Department’s SNF to the
                                           national repository. We found that the National Program
                                           did not have programmatic authority over canister and cask
                                           development for all Department-owned SNF. Further, the
                                           Department did not have a comprehensive integration plan
                                           for cask development.

                                           The OIG recommended that the Assistant Secretary for
                                           Environmental Management: (1) coordinate with the
                                           Director, Office of Civilian Radioactive Waste Management


12
                                              to ensure that the National Program has sufficient authority to
                                              fully integrate the Department’s SNF technology
                                              development activities; and (2) conduct an analysis to
                                              determine whether using standard canisters, rather than multi-
                                              canister overpacks, for the remainder of the National Program
                                              at Hanford is feasible and cost-effective. The OIG also
                                              recommended that the Director, Office of Civilian
                                              Radioactive Waste Management, work with the Deputy
                                              Administrator for Naval Reactors to determine whether a
                                              single cask development effort could serve the Department’s
                                              needs for transporting Department-owned SNF.

                                              The Assistant Secretary for Environmental Management and
                                              the Director, Office of Civilian Radioactive Waste
                                              Management, generally concurred with recommendations 1
                                              and 2. However, the Director, Office of Civilian Radioactive
                                              Waste Management, did not concur with the recommendation
                                              made to this office, stating that there were significant
                                              differences between SNF types, and the additional cost of
                                              using a cask suitable for Naval Reactors would exceed the
                                              potential benefit from shared development. The Deputy
                                              Administrator for Naval Reactors also responded to the report
                                              and generally concurred with the finding and
                                              recommendations. (IG-0608)

                                              Disposal of the Rocky Flats Environmental
                                              Technology Site Low-Level Mixed Waste
                                              The OIG conducted an audit to determine whether the
Rocky Flats-Building 440, now a waste stor-   Department is prepared to dispose of low-level mixed waste
age facility for transuranic and low-level    (LLMW) that has been generated by the Rocky Flats
mixed waste.
                                              Environmental Technology Site. The audit disclosed that no
                                              disposal site is likely to be available before January 2004, but
                                              that the Rocky Flats contractor anticipates a need for a
                                              disposal site by August 2003. The delay will cause the
                                              Department to consider temporary and permanent options
                                              with significant cost implications from as little as $4 million
                                              to as much as $320 million more than disposal at the
                                              Department’s preferred location, the Hanford Site near
                                              Richland, Washington.



                                                                                                            13
                                                Currently, neither Hanford nor the Department’s second
                                                preferred choice, the Nevada Test Site, is accepting
                                                LLMW. It is uncertain when Hanford can receive the
                                                waste because, in 2000, the Department entered into an
                                                agreement with the State of Washington that the
                                                Department would complete a Hanford Solid Waste
                                                Environmental Impact Statement (Hanford EIS) before
                                                sending LLMW to Hanford. The Hanford EIS has been
                                                ongoing since 1997.

                                                The 2000 agreement provides that under certain
                                                circumstances the Department, in consultation with
                                                Washington State, may dispose of LLMW at Hanford prior
                                                to full completion of the Hanford EIS. The OIG
                                                recommended, therefore, that the Assistant Secretary for
                                                Environmental Management: (1) aggressively pursue
                                                negotiations with the State to allow for timely disposal of
                                                Rocky Flats’ LLMW at Hanford if the Hanford EIS is
                                                delayed beyond August 2003; and, (2) if negotiations are
                                                unsuccessful, identify and pursue the most cost-effective
                                                LLMW storage and disposal alternatives to ensure timely
                                                closure of Rocky Flats.

                                                Management concurred with the finding and
                                                recommendations. (IG-0612)

                                                Inadequate Waste Disposal Plans at the
                                                Savannah River Site’s Waste Solidification
                                                Building
Saltstones low-level waste solidification and
disposal at Savannah River Site.
                                                The NNSA plans to spend about $58 million to design and
                                                construct a facility at the Savannah River Site that will
                                                treat radioactive liquid wastes. The proposed facility,
                                                commonly referred to as the Waste Solidification Building
                                                (WSB), will produce several waste forms acceptable for
                                                disposal at existing sites around the complex. This effort
                                                is a part of the Department’s Plutonium Disposition
                                                Program. The OIG conducted an audit to determine
                                                whether the Department has a complete plan to dispose of
                                                waste generated from the Plutonium Disposition Program.



 14
                       While NNSA intended to transfer waste treated at the WSB to the
                       Department’s Office of Environmental Management, it had not
                       coordinated its plans with that office. Consequently, Environmental
                       Management’s long-range plans did not include disposition of the WSB-
                       treated waste and the Department lacked a cost or schedule baseline for its
                       disposal. Additionally, during the audit, Environmental Management took
                       the position that receiving, processing, and disposing of the waste was
                       NNSA’s responsibility. Without an integrated and coordinated plan, the
ECONOMY, EFFICIENCY,




                       Department’s environmental disposition goals may not be achieved and
                       life-cycle costs for the Plutonium Disposition Program are likely to exceed
                       initial estimates.

                       The OIG recommended that the Administrator, NNSA: (1) formally
   EFFECTIVENESS




                       request that Environmental Management accept the waste from WSB;
                       (2) develop a complete disposition plan for WSB waste, including total
                       life-cycle costs; and (3) coordinate with the Assistant Secretary for
                       Environmental Management to establish procedures for the disposal of
                       newly generated nuclear waste from NNSA activities, thereby ensuring
                       that future plans are fully integrated and coordinated, and issue guidance
                       to field organizations, as appropriate.

                       NNSA did not concur with our recommendations. NNSA believes that
                       current waste disposal plans are adequate considering uncertainties
                       inherent at this stage and that it is premature to develop a plan and formal
                       agreement to transfer waste from the WSB to the Office of Environmental
                       Management when the facility will not be operational until 2007.

                       The disparate positions taken by NNSA and Environmental Management
                       emphasize the need for formal development of a complete disposition plan
                       for WSB waste and coordination among the affected offices. While the
                       exact amounts and distribution of WSB waste are not yet known, the
                       characteristics of the waste are known and preliminary estimates of waste
                       volumes have been prepared and can be used to begin the formal planning
                       process with Environmental Management. Additionally, the WSB life-
                       cycle costs should be finalized as soon as possible. Although the WSB is
                       not expected to commence operations until 2007, initiating the formal
                       planning process could reduce the chances that the project will encounter
                       significant delays. (IG-0618)




                                                                                                    15
                                               # INFORMATION TECHNOLOGY
                                                  MANAGEMENT
                                               The Department’s Unclassified Cyber Security Program 2003
PLEASE VISIT OUR WEBSITE AT



                                               Congress enacted the Federal Information Security Management Act
                                               (FISMA) to ensure that all agencies develop and maintain adequate cyber
                                               security controls to protect Federal information resources. As required
                                               by FISMA, the OIG performed its annual independent evaluation to
                                               determine whether the Department’s unclassified cyber security program
                                               protected data and information systems. The OIG evaluation noted that
                                               since our 2002 evaluation significant progress had been achieved in that
                                               the Department had taken an aggressive approach to strengthen cyber
                                               security and had implemented countermeasures to reduce network
                                               vulnerabilities. In addition, the Chief Information Officer had issued or
                              www.ig.doe.gov




                                               drafted several policy statements that, if implemented, should improve
                                               cyber security throughout the Department.

                                               Despite these improvements, the OIG identified problems that continue
                                               to exist in several critical areas. Specifically, the Department had not:
                                               consistently implemented a risk-based approach to cyber security
                                               management; developed or fully tested at nine sites plans for maintaining
                                               or resuming critical operations in the event of an emergency or disaster;
                                               resolved several previously reported problems or strengthened
                                               configuration management controls designed to protect systems from
                                               unauthorized modification or damage; corrected access control problems
                                               at five locations; and significantly improved cyber security incident
                                               reporting.

                                               The OIG recommended that the Under Secretary for Energy, Science and
                                               Environment and the Administrator, National Nuclear Security
                                               Administration, in conjunction with the Chief Information Officer:
                                               (1) ensure all program elements make full use of the Plan of Action and
                                               Milestones database to identify, track, and ultimately correct all cyber
                                               security weaknesses, regardless of the source; (2) verify that all cyber
                                               security weaknesses are corrected prior to closing them; and (3)
                                               implement a program-level cyber security metrics program to guide day-
                                               to-day operations.

                                               Department management concurred with our recommendations and
                                               proposed actions that were responsive to the recommendations.
                                               (IG-0620)

16
Computer Security, Training, and Accountability Deficiencies at
Lawrence Livermore National Laboratory
An OIG investigation identified instances in which the LLNL did not require
students and other invited guests to sign a user agreement or receive cyber
security training prior to accessing LLNL’s unclassified computer network.
One student guest was found to have used a Government computer to
download pornographic images and access pornographic websites. The
investigation also identified an isolated incident involving the use of a generic
user name and password for multiple students. In response to an OIG
Administrative Report to Management, LLNL took action to correct identified
computer security training and accountability deficiencies. (I02TC023)

Security Weakness in Department Wireless Networking
Technologies
An increasing number of the Department ’s organizations are using wireless
communications devices and networks. Such technologies enable the
transmission of data without physical connection using radio frequency. The
OIG conducted an audit to determine whether the Department had taken
actions to reduce the risks associated with its wireless networks.

The audit disclosed that four of six Department organizations the OIG
reviewed, that had deployed wireless networks, did so without assessing the
risks associated with their use. The report noted that most sites did not
routinely implement or test the effectiveness of wireless security measures and
the organizations had not focused sufficient attention on properly securing
wireless networks or preventing the unauthorized use of such devices. In
particular, they had not developed specific guidance or configuration
management policies outlining approval, security, and wireless connection
requirements. Lack of attention to wireless security placed the Department’s
information systems at risk of compromise.

The Department has initiated an effort to require specific security actions
regarding wireless devices. For example, management has drafted and
circulated for comment specific policy for the use of wireless technologies and
devices throughout the Department. Also, various organizations have
procured and are piloting the use of certain wireless security tools. Despite
these positive steps, we concluded that more needs to be done if the
Department is to have in place a comprehensive wireless security strategy



                                                                               17
                                            consistent with the President’s Management Agenda initiative
                                            regarding the use of information technology.

                                            Management agreed with our recommendations and noted
                                            that the Department’s proposed policy, “Cyber Security
                                            Requirements for Wireless Devices and Information Systems”
                                            will address many of our recommendations. (IG-0617)

                                            # NATIONAL SECURITY
                                            Timely Reestablishment of Domestic Plutonium-
                                            238 Production
                                            In January 2001, a Departmental Record of Decision was
                                            issued requiring reestablishment of the Department’s
                                            capability to domestically produce annually up to 5 kilograms
                                            of plutonium-238. This level of production is estimated to
                                            sufficiently satisfy future national security and other National
                                            Aeronautics and Space Administration (NASA) mission
                                            needs.

                                            The OIG conducted an audit to assess the Department’s
                                            progress in reestablishing this capability. The audit disclosed
                                            that unless the Department accelerates its program to
                                            reestablish a plutonium-238 production capability, it risks the
                                            ability to meet future need requirements. It was also
                                            determined that even under the most favorable scenario, a
                                            domestic production capability is at least 5 to 6 years from
                                            completion.
Plutonium-238 Sphere under its own light.
                                            The OIG recommended that the Director, Office of Nuclear
                                            Energy, Science and Technology: (1) initiate the
                                            Department’s critical decision process for the plutonium-238
                                            production project and follow established project
                                            management processes to ensure efficient and effective
                                            operations; (2) notify the Department of Defense and NASA
                                            of the lead time necessary to supply plutonium-238 for
                                            national security and space exploration applications and
                                            request that they provide the Department with firm estimates
                                            of future plutonium-238 needs; and (3) designate plutonium-
                                            238 production as a high priority project, aggressively pursue


18
                                                                 the level of funding necessary to reestablish a domestic production
                                                                 capability, and initiate procurement of the specialized equipment
                                                                 needed.

                                                                 Management generally concurred with the audit finding and
STOP FRAUD, WASTE, AND ABUSE.




                                                                 recommendations and agreed to take corrective actions. (IG-0607)

                                                                 Improvements Needed in Allocation of International
                                                                 Materials Protection, Controls and Accountability
    CALL THE OIG HOTLINE




                                                                 (IMPC&A) Program Funds
                                                                 The Department is responsible for initiatives designed to reduce the
                                1-800-541-1625 Or 202-586-4073




                                                                 threat related to nuclear materials and weapons in the former Soviet
                                                                 Union (FSU). The objective of the IMPC&A program is to reduce the
                                                                 risk posed by weapons and weapons-usable nuclear material at 95 sites
                                                                 in the FSU. The Department commits about $250 million annually to
                                                                 this initiative.

                                                                 The OIG conducted an audit to determine whether the Department had
                                                                 satisfied congressional and programmatic goals for the IMPC&A
                                                                 program. The audit determined that the Department may not be
                                                                 maximizing the performance of the IMPC&A program as a result of
                                                                 several continuing problems. Notably, a significant portion of program
                                                                 funding was expended and accumulated in the U.S. rather than being
                                                                 used directly to reduce or ameliorate proliferation risks in the FSU.
                                                                 Specifically, the Department: (1) exceeded congressional targets for
                                                                 funds expended at the national laboratories by about $8.5 million in
                                                                 Fiscal Year 2001 and $5.2 million in Fiscal Year 2002; (2) permitted
                                                                 uncommitted funds to increase from $65.8 million in Fiscal Year 2001
                                                                 to about $133 million by the end of Fiscal Year 2002; and (3) had not
                                                                 specifically identified or pursued opportunities to increase procurement
                                                                 efficiencies and reduce overhead charges.

                                                                 The OIG recommended that the Department develop a risk-based
                                                                 approach to funding allocation and establish specific, quantifiable
                                                                 performance measures with milestones and spending targets to guide
                                                                 execution of the program. As we noted in our recent report on
                                                                 Management Challenges at the Department of Energy (IG-0580), the
                                                                 integration of budget and performance measurement is essential to
                                                                 satisfy the President’s Management Initiative.



                                                                                                                                            19
     The NNSA did not specifically concur or non-concur with the report and
     recommendations. However, NNSA’s Associate Administrator for
     Management and Administration acknowledged our concern about the
     importance of a risk-based approach for allocation of funding and the
     need for developing performance measures for spending targets,
     uncommitted balances and procurement efficiencies. The Associate
     Administrator stated that NNSA’s Planning, Programming, Budgeting
     and Evaluation process, which is continuing to evolve, will ultimately
     resolve the concerns raised during the audit. (IG-0603)

     Management Challenges in the Department’s Protective
     Force Program
     In light of previously identified efficiency concerns, the OIG initiated an
     audit to evaluate the Department’s management of its protective force
     program. The audit disclosed that since September 11, 2001, the
     Department has made a number of management improvements in this
     area. The OIG noted that the Department had already taken some action
     to reduce the impact of heightened security on overtime costs. For
     example, the NNSA issued guidance granting authority to arm protective
     force personnel who have “L” rather than the higher level “Q” clearances
     to help alleviate overtime costs and free up officers to attend required
     training sessions. NNSA also initiated a study to determine how to
     decrease unscheduled overtime to an acceptable level. Additionally, the
     Department’s contractors have begun the process of hiring approximately
     400 more officers to reduce unscheduled overtime.

     The Department still faces a number of challenges that could adversely
     affect the protective force program. Specifically, the OIG observed:
     (1) long delays associated with granting clearances for newly employed
     protective force officers; (2) significant increases in unscheduled
     overtime costs; (3) morale and potential retention problems based on
     mandatory overtime and declining training opportunities; and (4)
     operational vulnerabilities associated with the lack of contingency plans
     to address unscheduled work stoppages.

     Management generally concurred with our recommendations regarding
     accelerated clearance processing, workforce monitoring, and overtime.
     While most Department organizations endorsed the need for an agency-
     wide contingency plan, one office stated that such a plan was impractical



20
and recommended that only site-level plans be developed. Overall,
management has implemented, or intends to implement, actions that
should satisfy the OIG’s recommendations. (IG-0602)

Review of the Department’s Joint Technical Operations Team
The Department of Energy (DOE) developed the Joint Technical
Operations Team (JTOT) to provide a rapidly deployable technical
response, primarily to terrorist incidents involving nuclear weapons.
JTOT consists of two phases: JTOT-1, during which DOE scientists
provide technical advice to Department of Defense (DOD) personnel to
render-safe a weapon of mass destruction; and JTOT-2, during which a
joint DOE/DOD team prepares a weapon of mass destruction for safe
transport for final disposition. Within DOE, JTOT activities are managed
and executed by the NNSA.

The OIG conducted an inspection to determine whether NNSA could meet
the aircraft requirements of DOE’s JTOT-1 and JTOT-2 missions. The
inspection concluded that NNSA was not prepared to meet its aircraft
requirements for these missions. Specifically, the OIG determined:
(1) NNSA aircraft were not always available to support potential JTOT-1
and JTOT-2 missions; (2) there had been no formal contingency planning
for those occasions when NNSA aircraft were not available for JTOT
missions; (3) DOE and DOD officials expressed significantly differing
views regarding the DOE’s intent or obligation to provide aircraft support
to DOD for JTOT-2 missions; and (4) if DOE was responsible for
providing aircraft support to DOD for JTOT-2 missions, NNSA’s aircraft
may not be capable of satisfactorily supporting these missions.

The OIG recommended that NNSA develop a formal agreement with
DOD detailing the specific JTOT aircraft responsibilities assigned to each
Department; that NNSA establish definitive aircraft requirements for
JTOT based on the formal agreement; and, most importantly, that NNSA
identify and make available the resources to meet the definitive aircraft
requirements. In response to our report, NNSA indicated that it would
initiate corrective actions. (IG-0605)




                                                                             21
                                             Vulnerability and Risk Assessments Adequate at
                                             Bonneville but Improvements Needed at the Western
                                             and Southwestern Power Administrations
                                             The OIG initiated an audit of the Bonneville Power Administration
                                             (Bonneville), Western Area Power Administration (Western), and
                                             Southwestern Power Administration (Southwestern) to determine
                                             whether they have performed adequate vulnerability and risk
                                             assessments for their critical assets. The audit determined that
                                             while Bonneville had performed adequate vulnerability and risk
                                             assessments for its most critical assets, Western’s and
                                             Southwestern’s assessments were either inadequate or nonexistent.

                                             The OIG found that Western emphasized emergency recovery
 The Southwestern Power Administration’s     rather than assessing asset vulnerabilities and risks. At
 Jamesboro, Arkansas, switchyard.            Southwestern, management stated that its security team’s workload
                                             and travel restrictions limited the priority placed on completing the
                                             assessments. As a result, Western and Southwestern assets could
                                             be more vulnerable to attack.

                                             The OIG recommended that the Administrators of Western and
                                             Southwestern ensure that: (1) adequate vulnerability and risk
                                             assessments are performed for their critical assets; and
                                             (2) appropriate risk mitigation strategies for asset protection are
                                             developed and implemented. Western and Southwestern concurred
                                             with the OIG’s finding and recommendations and have initiated
                                             corrective actions. (OAS-B-03-01)

                                             Safeguard and Control Inadequacies Over Personal
                                             Computers at Los Alamos National Laboratory

Southwestern Power Administration’s Poplar   LANL maintains approximately 5,000 laptop and 30,000 desktop
Bluff, Missouri, switchyard.                 computers for processing a broad range of classified and
                                             unclassified information. These computers are considered
                                             “sensitive property” due in part to their susceptibility to theft. The
                                             OIG conducted an inspection to determine the adequacy of internal
                                             controls over laptop and desktop computers at LANL.




 22
During the course of the inspection, the OIG issued an interim report
focusing on specific issues relating to accountability of laptop computers.
The inspection determined that controls over classified and unclassified
laptop computers at LANL were inadequate. The OIG identified control
weaknesses that undermined confidence in LANL’s ability to assure that
laptop computers were appropriately controlled and adequately safeguarded
from loss or theft. Weaknesses were also found in LANL’s controls for
ensuring laptop computers used to process and store classified information
were maintained in accordance with existing security requirements.

Specifically, the OIG found that: (1) LANL could not accurately account for
its single user, stand-alone, classified laptop computers; (2) laptop
computers reported as “unlocated” were written off of LANL’s property
inventory without a formal inquiry; (3) thefts of laptop computers were
sometimes not reported to LANL’s Office of Security Inquiries, as required;
(4) the “purchase card process” did not assure that required inventory
controls were followed when new computers were purchased; (5) laptop and
desktop computers were acquired using purchase cards after LANL
prohibited such purchases without special authorization; and (6) employees
were not held financially liable for the loss of their assigned Government
computer(s) in accordance with LANL requirements.

Because of the weaknesses identified, the OIG does not believe that LANL
can provide adequate assurance that classified, sensitive, or proprietary
information is appropriately protected. Without formally concurring,
management expressed general agreement with the report and stated that the
issues presented in the report would be factored into the corrective action
efforts currently underway. A broader assessment of controls over desktop
and laptop computers will be included in a subsequent report. (IG-0597)




                                                                        23
     Interagency Summary Report on Security Controls over
     Biological Agents
     The OIG participated in a Federal interagency working group that issued
     a classified interagency report detailing the need for improvements in
     security controls over biological agents. The document, which
     summarizes prior reports by the Inspectors General of the Departments of
     Energy, Agriculture, Army, Defense, Health and Human Services, and
     Veterans Affairs, provides Federal officials a single reference on recent
     issues and actions concerning security controls over biological agents.
     The report incorporates findings from three Energy Inspector General
     reports issued since 1999. (D-2003-126)

     # PERFORMANCE MANAGEMENT
     NNSA’s Planning, Programming, Budgeting, and Evaluation
     Process
     At its inception, NNSA committed to implement a Planning,
     Programming, Budgeting, and Evaluation (PPBE) process, modeled on
     the system used by the DOD. A PPBE process uses short-term and long-
     term planning to define program requirements and matches requirements
     with budgetary resources. NNSA’s Administrator established an overall
     objective that the PPBE process become the core management protocol
     for NNSA.

     In accordance with congressional appropriations report language, the
     OIG conducted an independent assessment of NNSA’s PPBE process and
     structure to determine if improvements could be made to further enhance
     NNSA’s planning, programming, budgeting, and evaluation. We also
     addressed Congress’ specific questions regarding: (1) how the NNSA’s
     PPBE process compared to the process used by the DOD; (2) whether the
     PPBE process was capable of being used as a central decision-making
     process for resource allocation decisions; and (3) to what extent PPBE
     had been incorporated by NNSA’s management and operating
     contractors.

     In response to Congress’ specific questions, we found that NNSA’s
     PPBE process: (1) was consistent with the DOD process, although the
     two processes differ with regard to the way budget execution and


24
evaluation are handled; (2) provided a mechanism for making centralized
resource allocation decisions; and (3) had not yet resulted in changes for
existing financial and budgeting systems at the observed NNSA
management and operating contractors because the field role in the process
had not been fully developed.

The OIG assessment determined that although NNSA had made significant
progress toward the implementation of its PPBE process, several areas are
in need of attention before the process is fully operational. Specifically,
NNSA managers were not always clear on their roles and responsibilities;
contractor estimates that form the basis for budget estimates were not
validated; and an independent analysis group to support the resource
allocation decision process had not been established. These issues arose
because NNSA determined that, due to concerns raised by Congress about
its progress on PPBE, its development would occur concurrently with
implementation.

The OIG recommended a series of specific actions intended to help NNSA
improve the implementation and effectiveness of its PPBE process. The
Associate Administrator for Management and Administration, NNSA,
agreed with the report, the conclusions reached, and the recommendations
presented. NNSA also indicated that since the audit’s conclusion,
significant progress had been made toward resolving certain issues raised in
the report. (IG-0614)

Improving the Management of Emergency Response and Law
Enforcement-Related Grants
The OIG conducted a review of the Savannah River Operations Office
(SRO) management of grants awarded for emergency response and law
enforcement-related activities. The grants are for activities intended to
enhance area security and safety, such as training State and local emergency
response personnel whose services may be required in the event of a
radiological incident; operating a State emergency operations center; and
maintaining a mobile radiation laboratory to be used in the event of a
radiological release. SRO has five grants associated with emergency
response and law enforcement-related activities: two with the State of
Georgia and three with the State of South Carolina. Financial obligations
for the five grants for Fiscal Years 2001 and 2002 were approximately




                                                                         25
     $2,682,534 and $3,004,728, respectively. SRO officials are responsible
     for ensuring that grantee activities are in accordance with the grant terms
     and for verifying the proper expenditure of grant funds.

     The OIG concluded that SRO was not adequately managing the grants to
     Georgia and South Carolina and did not have documentation to support
     whether or not the grant recipients were on schedule and meeting
     milestones. Specifically, we found that SRO: (1) had not received many
     of the deliverables specified in the grants; (2) had not followed up as
     required on the delinquent deliverables; and (3) did not have a formal
     system for tracking grant deliverables. Grant deliverables consist of
     progress and financial reports that provide performance and financial data
     that allow the Department to assess whether grantee performance is
     meeting established objectives and taxpayer funds are being appropriately
     used.

     The OIG recommended that SRO ensure receipt of all currently delinquent
     deliverables and that all incurred costs associated with the grants are
     reviewed for appropriateness and allowability. It was also recommended
     that SRO develop and implement a system for tracking deliverables,
     including establishment of a course of action when delinquencies remain
     unresolved. Department management concurred with the OIG’s
     recommendations and has initiated or is in the process of initiating
     corrective actions. (IG-0604)

     # STOCKPILE STEWARDSHIP
     NNSA Infrastructure Site Plans Deemed Unreliable
     In its Fiscal Year 2003 congressional budget submission, the NNSA
     requested almost $250 million for its Facilities and Infrastructure
     Recapitalization Program and indicated that a total of $1.5 billion was
     needed through 2007.

     NNSA Ten-Year Comprehensive Site Plans are key planning tools for
     allocating infrastructure funding and providing a foundation for NNSA
     complex-wide facilities and infrastructure strategic planning. The OIG
     conducted an audit to determine whether NNSA’s site plans provide
     accurate and useful data to aid in the prioritization of mission essential
     facility renovation and repair projects.



26
                                                    The audit determined that NNSA site plans did not contain
                                                    accurate assessments of the structural and mechanical
                                                    condition of the sites’ facilities nor did they identify and
                                                    prioritize the mission critical facilities in need of repair or
                                                    refurbishment. We found that facility condition assessments
                                                    used to support site plans were prepared using out-of-date
                                                    information and that sites did not have a standard
                                                    methodology for assigning a mission criticality level to their
                                                    facilities. Without reliable site plans, NNSA has less
                                                    assurance that the $1.5 billion it intends to spend for
                                                    infrastructure improvements over the next 5 years will be
                                                    spent on the most urgent needs and mission-essential
                                                    facilities. In addition, NNSA may be unable to ensure the
                                                    vitality and readiness of the nuclear weapons complex.

                                                    The OIG recommended that the Associate Administrator for
                                                    Facilities and Operations: (1) develop and implement
                                                    guidance establishing standard criteria for identifying
                                                    mission critical facilities, and define the types of facilities to
                                                    be included; and (2) require NNSA sites to conduct new
                                                    condition assessments on all mission critical facilities, and
                                                    update their Ten-Year Comprehensive Site Plans using the
                                                    revised condition assessments. NNSA management
                                                    concurred with the recommendations and stated that many
                                                    actions have been taken to address the overarching issues
                                                    noted in the report. NNSA did not believe, however, that it
                                                    risked being unable to ensure the vitality and readiness of
                                                    the nuclear weapons complex as indicated in the report.
                                                    (OAS-B-03-02)

                                                    Audit Finds Significant Progress Made in
                                                    Construction of the National Ignition Facility
                                                    The National Ignition Facility (NIF) at LLNL will be an
                                                    integral part of the NNSA mission of maintaining the safety,
                                                    reliability, and effectiveness of the nuclear stockpile without
                                                    underground nuclear testing. The facility will be key to the
Installation of NIF Spatial Filter End Vessels in   science-based stockpile stewardship program, creating
Laser Bay 2 at Lawrence Livermore                   temperatures, pressures, and densities that approach those
National Laboratory.                                found in an exploding nuclear weapon.



                                                                                                                    27
                                                  NIF project construction was originally estimated to cost
                                                  $1.2 billion. In 1999, the Department reported, however,
                                                  that there would be significant schedule and cost problems
                                                  in completing the facility by the June 2003 completion date.
                                                  In April 2001, NNSA revised the completion date to
                                                  September 2008 and presented revised cost estimates of
                                                  $2.2 billion for project construction and another $1.2 billion
                                                  for demonstration and commission of the facility’s laser
                                                  performance.

                                                  In light of the initial schedule and cost concerns, the OIG
                                                  conducted an audit to determine whether NNSA would be
                                                  able to complete construction of the NIF facility within the
                                                  revised schedule and cost baselines. The audit determined
                                                  that significant progress has been made toward constructing
                                                  the facility within the revised schedule and cost baselines.
                                                  As of February 2003, about 73 percent of the facility was
                                                  complete and LLNL had met all revised milestone dates
                                                  within the cost baseline. Furthermore, the audit revealed
                                                  that LLNL had successfully developed project management
                                                  controls, including milestone dates that were more
                                                  aggressive than those set by NNSA.

                                                  The OIG plans to continue to monitor the project.
                                                  (IG-0598)

                                                  Improvements Necessary in Project Management
                                                  Control of the Dual Axis Radiographic
                                                  Hydrodynamic Test Facility
                                                  The Dual Axis Radiographic Hydrodynamic Test (DARHT)
                                                  Facility at the LANL will be the Nation’s first
                                                  hydrodynamic test facility capable of producing three-
                                                  dimensional x-ray photographs. Hydrodynamic tests are
The following photograph shows DARHT’s            used to obtain diagnostic information on the behavior of a
main facility, the Hydrotest Firing Site, under   nuclear weapon and to evaluate the effects of aging on the
construction.
                                                  nuclear weapons remaining in the Nation’s stockpile. The
                                                  OIG conducted an audit to determine whether the DARHT
                                                  project was within schedule, cost, and technical scope.




28
The audit disclosed that the DARHT facility would not be completely
operational until at least 15 months after scheduled completion. In
addition, the following activities gave the erroneous appearance that the
total project cost had remained within the planned budget: scope changes
had reduced or eliminated work elements; critical activities had been
shifted to other programs; and at least two activities that were part of the
original scope of work are being completed with non-project funds.

The audit concluded that project management control, as exercised by the
NNSA and LANL, needed improvement. Specifically, budget estimates
were not realistic, given the project’s technical complexity; a sufficient
contingency fund had not been established; and additional project funding
had not been requested, even when needed. As a result, DARHT lacked a
viable baseline and at least an additional $57.5 million in costs associated
with the transferred work elements will have to be absorbed by other
programs or projects. Management generally concurred with the OIG’s
finding and recommendations. (IG-0599)

Inefficiencies Found in Beryllium Oxide Operations at the
Y-12 National Security Complex
The Y-12 National Security Complex is a vital part of the Department’s
national defense mission, and its mandate is to help ensure the viability of
the Nation’s nuclear weapons stockpile. As part of its stockpile
stewardship responsibilities, Y-12 makes widespread use of beryllium
oxide primarily as a ceramic component in nuclear weapons. Beryllium
oxide is highly toxic, posing significant health risks to workers. Y-12’s
beryllium oxide operations include 141 active storage and operational
areas. The OIG initiated an audit of Y-12 to determine whether the
Department was conducting its beryllium oxide operations in the most
efficient and effective manner.

The audit disclosed a number of inefficiencies in Y-12’s beryllium oxide
operations. For example, operations were spread across the Y-12 site and,
in some cases, were co-located with other Y-12 operations. In addition,
manufacturing equipment and facilities were outdated, which increased
manufacturing time and costs and exacerbated health hazards associated
with the use of beryllium. Problems persisted because the Department did
not have an approved, consistent plan for improving operations. Further,




                                                                           29
                                    the Department did not consider materials other than
                                    beryllium oxide that may be capable of performing the same
                                    function without the harmful health effects. As of September
                                    2002, the Department had spent about 4 years and $10 million
                                    on activities designed to mitigate the identified problems with
                                    beryllium operations; however, at the time of the audit,
                                    improvements were still needed.

                                    The OIG recommended that the Deputy Administrator for
                                    Defense Programs: (1) ascertain the viability of using a
                                    substitute for beryllium oxide; (2) determine the most
                                    efficient and effective path forward for supporting the
                                    enduring stockpile; (3) prepare a plan to implement the
                                    decision; and (4) take action, in the interim, to mitigate the
                                    existing beryllium oxide operational efficiency and
                                    effectiveness issues. Management agreed with our
                                    recommendations and stated that it would begin the
                                    appropriate corrective action process immediately.
                                    (IG-0595)

                                    # WORKER/COMMUNITY SAFETY
                                    Shortcomings in the Oversight of Shock Sensitive
                                    Chemicals at the Department’s Ames Laboratory
                                    Shock sensitive chemicals, which are used throughout the
                                    Department’s complex, are substances that have the potential
                                    to undergo rapid reactions that can produce an explosion.
                                    The OIG conducted an inspection to determine the adequacy
                                    of management controls over shock sensitive chemicals at the
                                    Ames Laboratory (Ames).
     Ames Laboratory aerial view.
                                    The review determined that although Ames had documented
                                    requirements in place for controlling shock sensitive
                                    chemicals, implementation shortcomings existed. During the
                                    course of the inspection, the OIG also learned that the
                                    Department does not have a standard definition or listing of
                                    shock sensitive chemicals. This situation has resulted in
                                    inconsistent handling of shock sensitive chemicals from site
                                    to site.



30
                                                  The OIG recommended that the Assistant Secretary for
                                                  Environment, Safety and Health (EH): (1) develop and
                                                  implement a Department definition or list of shock sensitive
                                                  chemicals; and (2) evaluate whether Department-wide
                                                  standards for controlling shock sensitive chemicals should be
                                                  developed and appropriately implement the results of that
                                                  evaluation. Recommendations were also made to the
                                                  Manager, Chicago Operations Office to ensure improved
                                                  controls over shock sensitive chemicals at Ames.

                                                  EH agreed that the management of shock sensitive chemicals
                                                  needs enhancement. EH also proposed actions that, when
                                                  implemented, should address the OIG’s program-wide
                                                  concerns. Chicago Operations Office management concurred
                                                  with our recommendations and identified a number of
                                                  corrective actions taken that appear to address the OIG
                                                  recommendations. (IG-0615)
Ames Lab Scientists are studying the effects of
light on chemical reactions.




                                                                                                            31
                    # ADMINISTRATIVE SAFEGUARDS
                    Congressional Request to Review Alleged Inappropriate
                    Communications by Federal Energy Regulatory Commission
                    Chair and Member
                    At the request of Senators Joseph Lieberman and Maria Cantwell, the OIG
OTHER SIGNIFICANT




                    conducted an inquiry concerning a telephone conference call held by
ACCOMPLISHMENTS




                    Chairman Pat Wood and Commissioner Nora Mead Brownell of the
                    Federal Energy Regulatory Commission (Commission) with a number of
                    Wall Street representatives. At issue was whether Chairman Wood and
                    Commissioner Brownell inappropriately discussed pending cases during
                    the call. Specifically, media accounts cited by the Senators reported that
                    the Commissioners may have indicated how they intended to vote on
                    particular contract cases.

                    The OIG did not identify evidence substantiating the allegation that the
                    conduct or contents of the call violated any Commission procedural rules.
                    While recognizing the Commission’s desire to engage in public outreach,
                    the OIG did recommend that the Commission carefully consider whether
                    the conduct or contents of communications such as those at issue in this
                    particular instance expose Commission decision-making to avoidable legal
                    challenge or needless controversy.

                    To the extent the Commission intends to continue engaging in such
                    communications in the future, the OIG believes that the Commission
                    should carefully consider whether: (1) such communications should be
                    tape-recorded or concurrently transcribed and otherwise made available to
                    the public as soon as possible; (2) the identities and affiliations of the
                    participants in such communications should be recorded; and (3) other
                    steps should be taken to promote public confidence in Commission
                    proceedings, including, for example, a practice of inviting members of the
                    media or the general public to participate. (IG-0610)

                    Department Withholds Monies from Prime Contractor
                    for Improper Training Costs
                    An OIG investigation determined that the prime contractor at the
                    Portsmouth Gaseous Diffusion Plant improperly billed the Department for
                    (1) employee training that occurred prior to the start of the contract; and


32
                            (2) excessive training hours associated with two contractor employees. The
                            Department, in coordination with the U.S. Attorney’s Office for the
ADMINISTRATIVE SAFEGUARDS

                            Southern District of Ohio, disallowed and withheld $251,800 from the
                            prime contractor to resolve this matter. (I02OR012)

                            Contractor Employee Convicted and Sentenced for Misuse of
                            Government Funded Fleet Cards

                            An OIG investigation determined that a contractor employee assigned to the
                            Hanford Site Special Response Team Security Force stole and utilized two
                            U.S. Government fleet fuel credit cards to make personal fuel and oil
                            purchases in excess of $7,000. The subject pleaded guilty to a one-count
                            violation of Title 18 U.S.C. 641 (Theft of Government Property). The
                            individual was sentenced to 1-year probation and ordered to pay restitution
                            in the amount of $7,190.33. The individual’s employment was terminated
                            as a result of the investigation. (I03RL004)

                            Contractor Employee Debarred for Misuse of Government
                            Credit Card and Theft of Funds
                            An OIG investigation determined that a former employee at Pacific
                            Northwest National Laboratory: (1) misused an assigned Government
                            funded credit card to make personal purchases totaling $1,709.04; and (2)
                            stole $3,115 in Laboratory continuing education funds. The individual was
                            charged in the State of Washington with theft in the first degree. In
                            response to an OIG Administrative Report to Management, the Department
                            debarred the subject from Government contracting for a period of 3 years.
                            The subject’s current whereabouts are unknown. (I02RL003)

                            Subcontractor Employees Plead Guilty to Theft of Government
                            Property
                            An OIG joint investigation with a local Sheriff’s Department determined
                            that two subcontractor employees at the Bonneville Power Administration
                            (BPA) stole in excess of $45,000 of Government property. The property,
                            consisting of computer hardware, software, and accessories; office supplies;
                            power tools; and steel shelving units, was recovered during the
                            investigation. The two subjects pleaded guilty to violations of 18 U.S.C.
                            641 (Theft of Government Property). One subject was sentenced to 3
                            months’ home detention, 3 years’ probation, and was ordered to pay a $100



                                                                                                     33
                             court assessment fee. The second subject was sentenced to 180 days home
                             detention, 3 years’ probation, and was ordered to pay a $100 court assessment fee.
                             Both subjects were terminated as a result of the investigation. (I02RL005)
 ADMINISTRATIVE SAFEGUARDS



                             Laboratory Intern Charged with Destruction of a Government
                             Laptop
                             An OIG investigation determined that a student intern at Sandia National
                             Laboratories stole and destroyed an unclassified Government laptop computer.
                             The intern’s employment was terminated. The subject pleaded no contest to one
                             count of Computer Abuse, in violation of New Mexico State Statute, Chapter 30,
                             Article 45, Section 4(5). The subject was sentenced to 2 years’ probation and
                             agreed to reimburse the Department $10,000. (I02AL015)

                             Civil Judgment Awarded Against Former Department Subcontractor
                             for Filing False Coal Test Invoices and Reports
                             As previously reported, a joint investigation with other Federal law enforcement
                             agencies determined that two subcontractor officials and their respective
                             companies knowingly submitted false claims to the Departments of Energy and
                             Defense in the form of coal test reports and invoices for coal testing. Both
                             individuals pleaded guilty to criminal charges of filing false statements, and each
                             was sentenced to 2 years’ probation. Both companies and their owners were also
                             debarred from Government contracting for a 3-year period.

                             During this reporting period, a civil judgment in the amount of $1,030,000 was
                             rendered against one of the companies and its owner. Other additional claims are
                             pending. (I94SR018)

                             Former Department Employee Debarred for Violations of the False
                             Claims Act
                             As previously reported, an OIG investigation determined that a Department
                             employee in the Office of Scientific and Technical Information (OSTI) conspired
                             with a Department subcontractor employee to submit false Government travel and
                             lodging claims. As part of a civil judgment, the Department employee was
                             ordered to pay treble damages in the amount of $8,494.20 and was assessed an
                             additional $52,500 in civil penalties for violations of the False Claims Act. In
                             response to an OIG Administrative Report to Management, the Department also
                             removed the employee from Federal Service and initiated action to suspend the
                             subcontractor employee’s clearance.


34
                            During the current reporting period, the former OSTI employee was
                            debarred from Government contracting and Government-approved
ADMINISTRATIVE SAFEGUARDS


                            subcontracting for a 3-year period. (I00OR002)

                            Department Supply Specialist Sentenced for Receiving
                            Kickbacks
                            As previously reported, a joint investigation with the Federal Bureau of
                            Investigation (FBI) determined that a Department employee responsible
                            for providing oversight of carpet cleaning contractors received kickbacks
                            from a carpet-cleaning vendor. The employee, a General Supply
                            Specialist, also provided the vendor with competitor bid information. As a
                            result of the investigation, the employee pleaded guilty to Title 18 U.S.C.
                            201(b)(2)(A) (Bribery of Public Official) and retired from Federal Service.

                            During the current reporting period, the individual was sentenced to 6
                            months’ imprisonment, 6 months’ home detention, 2 years’ supervised
                            release and was ordered to pay a $5,000 fine and a $100 assessment fee.
                            In response to an Administrative Report to Management, the Department
                            also took action to correct identified systemic weaknesses associated with
                            the individual’s utilization of a Government purchase card to obtain carpet
                            cleaning services. (I01HQ006)

                            Subcontractor Employee Sentenced for Theft of Property
                            As previously reported, a joint investigation by the OIG and FBI
                            determined that over a 4-year period a former subcontractor employee at
                            the INEEL stole about $10,000 worth of Government property. The stolen
                            property, which included a computer, printer, carpet and various tools, has
                            been recovered. As a result of the investigation, the subcontractor
                            terminated the subject’s employment. In addition, the subject pleaded
                            guilty to a 1-count violation of Title 18 U.S.C. 641 (Theft of Government
                            Property).

                            During the current reporting period, the subject was sentenced to 3
                            months’ incarceration, 1 year supervised release, and was ordered to pay a
                            $3,500 fine, $651.75 in restitution, and a $25 assessment fee. (I01IF004)




                                                                                                     35
                             Contractor Procurement Official Sentenced for Bribery
 ADMINISTRATIVE SAFEGUARDS


                             As previously reported, an OIG joint investigation with the FBI
                             determined that a contractor procurement official inappropriately accepted
                             cash and other items of value from a laboratory vendor. The investigation
                             found that over a 2-year period the procurement official worked with the
                             vendor to inflate the cost of specialty sensor parts; improperly purchased
                             the parts with a Government procurement card; ordered and paid for parts
                             that were never delivered; and arranged for the subcontractor to fix, repair,
                             and rework parts at inflated prices. The procurement official pleaded
                             guilty to violating Title 18 U.S.C. 201(b)(2)(A) (Bribery of Public
                             Official).

                             During the current reporting period, the procurement official was
                             sentenced to 1 year and 1 day incarceration and 3 years’ supervised release
                             and was ordered to pay $12,500 in restitution, a $3,000 fine, and a $100
                             special assessment fee. The procurement official is no longer an employee
                             of the contractor. (I01LL003)

                             Contractor Employee Sentenced for Theft of Public Money
                             As previously reported, an OIG joint investigation with the FBI
                             determined that a contractor employee at the Department’s Brookhaven
                             National Laboratory submitted false travel vouchers in the amount of
                             $51,130. During the course of the investigation, the subject made
                             restitution to the Department and subsequently pleaded guilty to violating
                             Title 18 U.S.C. 641 (Theft of Public Money).

                             During the current reporting period, the subject was sentenced to 2 years’
                             probation, 6 months’ home detention and was ordered to pay a $9,600 fine
                             and $25 assessment fee. (I02PT003)

                             Department Employee Sentenced for Filing False Income Tax
                             Returns
                             As previously reported, a joint investigation with the Internal Revenue
                             Service Criminal Investigation Division determined that a Department
                             employee failed to report approximately $97,275 in cash and other items
                             of value on income tax returns filed between 1995 and 1998. The
                             investigation indicated that the employee solicited some of the non-



36
                            reported income from Department contractors. The employee pleaded
                            guilty to four counts of Title 26 U.S.C. 7206(1) (Filing False Income Tax
ADMINISTRATIVE SAFEGUARDS


                            Returns) and subsequently resigned.

                            During this reporting period, the individual was sentenced to 7 months’
                            imprisonment, 7 months’ home detention, and 1 year supervised release.
                            The individual was also ordered to pay $35,675 in restitution and a $400
                            assessment fee. (I98HQ006)

                            Individual Sentenced in Connection with Theft and Forgery
                            of Department Security Badges
                            As previously reported, a joint investigation with the FBI determined that
                            an individual not associated with the Department or its contractors stole
                            and then forged Department security badges to facilitate the cashing of
                            fraudulent checks. The individual pleaded guilty to a three-count
                            violation of Title 18 U.S.C. 1028(a)(6) (Fraud and Related Activity in
                            Connection with Identification Documents) and a one-count violation of
                            Title 18 U.S.C. 471 (Manufacturing Counterfeit Securities of the United
                            States).

                            During the current reporting period, the individual was sentenced to
                            5 months’ incarceration, 4 months’ home confinement, and 3 years’
                            supervised release and was ordered to pay $300. (I02AL013)




                                                                                                       37
                              # CONGRESSIONAL RESPONSES
CONGRESSIONAL RESPONSES AND


                              During this reporting period, the OIG received 27 requests for information
                              from Congress, provided information in 29 instances to Congress, briefed
                              Committee staff on 12 occasions, and testified at 1 hearing.

                              # PRESIDENT’S COUNCIL ON INTEGRITY
                                 AND EFFICIENCY AUDIT COMMITTEE
                              The OIG is an active member and participant on the President's Council on
      PCIE ACTIVITIES




                              Integrity and Efficiency (PCIE) Audit Committee. Inspector General
                              Gregory H. Friedman has served as Chairman of the Committee since May
                              1999. This Committee leads the Federal audit community in key efforts to
                              facilitate the President's Management Reform Agenda by forming task
                              forces and working collaboratively with various elements throughout the
                              Federal Government. Most recently, this Office participated in the
                              Committee's revision of the “Policy Statement on Internal Quality Control
                              and External Peer Reviews.”

                              # PRESIDENT’S COUNCIL ON INTEGRITY
                                 AND EFFICIENCY AWARDS
                              The OIG is pleased to report that members of our staff received the
                              following PCIE Awards for Excellence:

                              Y-12 Audit Group – for outstanding achievements in improving integrity,
                              efficiency, and effectiveness of Government operations through several
                              high-impact audits that were truly innovative and which directly resulted
                              in management action to improve operations, cost savings, and improved
                              health and safety for workers. (Audits included: “Calutron Isotope
                              Production Capabilities,” IG-0574; “Beryllium Oxide Operations at
                              Y-12,” IG-0595; “Management of Beryllium Metal Supply,”
                              IG-0583; and “Reconfiguration of Kansas City Plant,” IG-0616.)

                              Office of Inspections – for outstanding efforts in its work to enhance
                              Department safeguards and security through various reviews, including
                              cross-cutting topics, such as emergency cooperative agreements with other
                              entities, aircraft response to terrorist incidents involving nuclear weapons,
                              protective force efficacy, and high-risk property.



38
                  Nuclear/Energy Audit Group – for outstanding contributions to national security
                  in their review of classified visit controls at two national laboratories.

                  Idaho Falls Audit Office – for outstanding work on audits of the Department ’s
                  Advanced Mixed Waste Treatment Project.

                  Stockpile Stewardship Audit Team – for outstanding audits of the Department’s
                  Stockpile Stewardship Program. Specifically, this team conducted high-impact
                  audits concerning weaknesses in stockpile stewardship operations, maintenance,
                  refurbishment, testing, components and materials.
PCIE ACTIVITIES




                  OIG Members of the East Tennessee Environmental Crimes Task Force – for
                  their outstanding, sustained, and distinguished performance in connection with the
                  investigation and prosecution of environmental crimes within the Eastern District of
                  Tennessee.




                                                                                                         39
           # HIGHLIGHTS OF POSITIVE RESULTS BASED ON
              OFFICE OF INSPECTOR GENERAL WORK
           During the current reporting period, the Department took the following positive
           actions as a result of prior and recent Office of Inspector General work. Consistent
           with our findings and recommendations in:

              •   our review entitled, “Management of Sensitive Equipment at Selected
                  Locations,” IG-0606, and other investigations into security lapses at the
                  Department’s nuclear laboratories, the Secretary of Energy directed the
                  NNSA to overhaul security procedures at all NNSA laboratories. (See audit
                  summary on page 5.)

              •   our audit concerning, “Beryllium Oxide Operations at the Y-12 National
 RESULTS




                  Security Complex,” IG-0595, the Deputy Administrator for Defense
                  Programs has decided not to build the Beryllium Manufacturing Facility and
                  to cease beryllium oxide fabrication by the end of Fiscal Year 2004. (See
                  audit summary on page 31.)

              •   our report entitled, “The Advanced Mixed Waste Treatment Facility Contract
                  at the Idaho National Engineering and Environmental Laboratory,” IG-
                  0622, Department management, in an apparent reversal of position, is
                  conducting an analysis to determine whether a substantial price adjustment is
                  warranted under the contract to construct the Advanced Mixed Waste
                  Treatment Facility. (See audit summary on page 4.)

              •   our report entitled, “Accounting for Government Owned Nuclear Material
                  Provided to Non-Department Domestic Facilities,” IG-529, the Nuclear
                  Regulatory Commission has directed 1,100 companies to report on the
                  precise amount of nuclear materials in their possession. This directive is part
                  of an initiative to update the Nuclear Materials Management and Safeguards
                  System used to track nuclear materials held by private, educational and other
                  facilities.

              •   our review entitled, “Accounting for Sealed Sources of Nuclear Material
                  Provided to Foreign Countries,” IG-0546, on March 11, 2003, the Secretary
                  of Energy announced at the International Atomic Energy Agency conference
                  on Security of Radioactive Sources that the U.S. was evaluating potential
                  vulnerabilities in the control of radioactive sources in order to strengthen the
                  regulatory infrastructure for accounting, tracking and disposing of such
                  sources. In addition, the Secretary announced that the U.S. will focus its


40
                                        resources on assisting developing countries to locate, consolidate,
                                        secure, and dispose of high-risk, orphaned radiological sources by
                                        developing national and regional repositories for these sources.

                                    •   Our report entitled, “Calutron Isotope Production Capabilities,”
                                        IG-0574, Department management re-evaluated its decision to
                                        permanently disable existing calutrons. As part of the re-evaluation,
                                        management agreed to maintain existing calutrons in an operable
Did you know?                           condition until they are no longer needed.
The False Claims Act (Act)
prohibits any person from
                                 # QUI TAMS
“knowingly” presenting “a
false or fraudulent claim for
                                 Since 1996, the OIG has been instrumental in working with the Department
payment or approval” to the      of Justice (DOJ) in Qui Tam cases. The OIG is currently working with the
Federal Government. The Act      DOJ on 24 Qui Tam lawsuits involving alleged fraud against the
authorizes individual citizens   Government in the amount of approximately $187 million.
to bring private suits,
referred to as Qui Tam
actions, to enforce the Act
on behalf of the Government.
                                 # MANAGEMENT REFERRAL SYSTEM
Source: False Claims Act.        The OIG operates an extensive Management Referral System. Under this
                                 system, selected matters received through the OIG Hotline or other sources
                                 are referred to the appropriate Department manager or other Government
                                 agency for review and appropriate action. Complaints referred may include
                                 such matters as time and attendance abuse, misuse of Government vehicles
                                 and equipment, violations of established policy, and violations of standards
                                 of conduct.

                                 The OIG referred 119 complaints to Department management and other
                                 Government agencies during this reporting period and specifically
                                 requested Department management to respond concerning the actions taken
                                 on 40 of these complaints. Otherwise, Department management is asked to
                                 respond if it develops information or takes action that it believes should be
                                 reported. The following management responses demonstrate management’s
                                 use of OIG information to stimulate positive change or to take decisive
                                 action:

                                    •   The OIG referred evidence to management indicating that, while on
                                        duty, a contractor employee had been using Government computers
                                        to send private citizens harassing e-mail. Department management
                                        found the evidence persuasive enough to provide it to the contractor,
                                        who then terminated the employee.


                                                                                                          41
                       •   In response to complaints of possible misuse of vehicles, a
                           management and operating contractor at one of the
                           Department’s sites confirmed that two employees were
                           inappropriately using Government motor-pool vehicles. In
                           addition to taking corrective actions specific to the two
                           individuals, the contractor’s internal audit organization is
                           conducting a systematic review of all light-vehicle usage.
OTHER SIGNIFICANT
ACCOMPLISHMENTS




                        • In response to allegations of safety issues at a Department
                          site, the program office responded with a detailed table
                          showing 18 corrective actions it had identified for the site
                          contractor to implement. To date, the program office has:
                          interviewed 150 employees concerning these issues;
                          revised safety and radiological control procedures to
                          prevent “radiological airborne uptakes”; and taken
                          disciplinary action against a manager.

                    # INTELLIGENCE ACTIVITIES
                    The OIG issued two quarterly intelligence reports pursuant to
                    Executive Order 12863, “President’s Foreign Intelligence
                    Advisory Board.” The Order requires the Inspectors General of
                    the Intelligence Community to report to the Intelligence Oversight
                    Board concerning intelligence activities that Inspectors General
                    have reason to believe may be unlawful or contrary to Executive
                    order or Presidential directive. No intelligence activities were
                    identified that were contrary to Executive order or Presidential
                    directive.

                    # LEGISLATIVE AND REGULATORY
                       REVIEW
                    The OIG coordinated and reviewed 23 legislative and regulatory
                    items, as required by the Inspector General Act of 1978 (Act).
                    The Act requires the OIG to review existing and proposed
                    legislation and regulations relating to Department programs and
                    operations and to comment on the impact which they may have on
                    economical and efficient operations of the Department.



42
                    # HOTLINE SYSTEM
                    The OIG operates a Hotline System to facilitate the reporting of
                    allegations involving the programs and activities under the auspices of
                    the Department. During the reporting period, the Hotline processed 572
                    complaints. As noted throughout this report, you can reach the OIG
                    Hotline by calling 1-800-541-1625 or 202-586-4073.
OTHER SIGNIFICANT
ACCOMPLISHMENTS




                                                                                              43
                                                 AUDIT REPORTS ISSUED
                                               April 1, 2003, to September 30, 2003

                  REPORT                                                   DATE OF                             QUESTIONED
                                                 TITLE                                       SAVINGS
                  NUMBER                                                    ISSUE                                COSTS
                   IG-0595     Beryllium Oxide Operations at the Y-12       04-16-03       $200,000,000
                               National Security Complex

                   IG-0596     University of California's Costs Claimed     04-16-03                               $14,599,874
                               and Related Internal Controls for
                               Operation of Los Alamos National
REPORTS ISSUED




                               Laboratory
                   IG-0598     Status of the National Ignition Facility     04-28-03
                               Project

                   IG-0599     Dual Axis Radiographic Hydrodynamic          05-22-03        $57,500,000
                               Test Facility

                   IG-0600     Oversight Funds Provided to Local            05-23-03                               $3,345,160
                               Governments in the State of Nevada

                   IG-0601     Idaho National Engineering and               05-27-03
                               Environmental Laboratory's Strategic
                               Initiative Fund
                   IG-0602     Management of the Department's               06-03-03
                               Protective Forces

                   IG-0603     International Materials Protection,          06-04-03
                               Control and Accountability
                               Nonproliferation Initiative
                   IG-0606     Management of Sensitive Equipment at         06-16-03
                               Selected Locations

                   IG-0607     Plutonium-238 Production                     06-19-03


                   IG-0608     The Department of Energy's Spent             06-20-03
                               Nuclear Fuel Canisters and
                               Transportation Casks
                   IG-0609     Utility System Leases at the East            06-25-03                               $6,900,000
                               Tennessee Technology Park

                   IG-0611     Waste Reduction Plans for the Advanced       07-07-03
                               Mixed Waste Treatment Project at the
                               Idaho National Engineering and
                               Environmental Laboratory

                 Additional information on the OIG, including the full text of its public reports and Department
44               management’s comments, can be found on the OIG website – www.ig.doe.gov.
                   IG-0612      Disposal of the Rocky Flats                07-08-03
                                Environmental Technology Site's Low-
                                Level Mixed Waste
                   IG-0613      Disposal of Remote-Handled Transuranic     07-18-03   $7,900,000
                                Waste at the Waste Isolation Pilot Plant

                   IG-0614      National Nuclear Security                  08-05-03
                                Administration's Planning, Programming,
                                Budgeting, and Evaluation Process
                   IG-0616      Reconfiguration of the Kansas City Plant   08-13-03   $22,000,000
REPORTS ISSUED




                   IG-0617      Security Over Wireless Networking          08-25-03
                                Technologies

                   IG-0618      Savannah River Site's Waste                09-04-03
                                Solidification Building


                   IG-0620      The Department’s Unclassified Cyber        09-17-03
                                Security Program-2003

                   IG-0622   The Advanced Mixed Waste Treatment            09-30-03    $90,000,000
                             Facility Contract at the Idaho National
                             Engineering and Environmental
                             Laboratory
                 OAS-B-03-01 Power Marketing Administration                04-28-03
                             Infrastructure Protection

                 OAS-B-03-02 Planning for National Nuclear Security        05-06-03
                             Administration Infrastructure


                 OAS-B-03-03 Infrastructure Improvements at the            05-07-03
                             Hanford Site

                 OAS-L-03-13 Performance Measures in the Office of         04-22-03
                             Science

                 OAS-L-03-14 Office of Energy Efficiency and               04-17-03
                             Renewable Energy's (EE) Grants,
                             Subsidies, and Cost Sharing
                             Arrangements
                 OAS-L-03-15 Weatherization Assistance Program             04-18-03


                 OAS-L-03-16 Department of Energy's Nuclear                04-16-03
                             Weapons Incident Response Program



                                                                                                     45
                 OAS-L-03-17 Distributed Energy Resources Program        05-02-03




                 OAS-L-03-18 Utilization of Safeguards and Security      05-29-03
                             Funding




                 OAS-L-03-19 Recurring Acquisitions at the Chicago       08-14-03
                             Operations Office
REPORTS ISSUED




                 OAS-L-03-20 Procurement Administration at the Oak       09-11-03
                             Ridge National Laboratory




                 OAS-L-03-21 The Federal Energy Regulatory               09-22-03
                             Commission’s Cyber Security Program-
                             2003



                 OAS-L-03-22 Relocation of Administrative Personnel      08-25-03
                             from A-Area to B-Area at the Savannah
                             River Site




                 OAS-V-03-06 Assessment of Changes to the Internal       04-08-03
                             Control Structure and Their Impact on the
                             Allowability of Costs Claimed by and
                             Reimbursed to Argonne National
                             Laboratory Under Department of Energy
                             Contract No. W-31-109-ENG-38

                 OAS-V-03-07 Assessment of Changes to the Internal       04-17-03
                             Control Structure and Their Impact on the
                             Allowability of Costs Claimed by and
                             Reimbursed to Ames Laboratory Under
                             Department of Energy Contract No.
                             W-7405-ENG-82




46
                 OAS-V-03-08 Assessment of Changes to the Internal               04-24-03
                               Control Structure and Their Impact on
                               the Allowability of Costs Claimed by
                               and Reimbursed to Bechtel BWXT,
                               LLC Under Department of Energy
                               Contract No. DE-AC07-99ID13727
                 OAS-V-03-09 Assessment of Changes to the Internal               06-10-03
                               Control Structure and Their Impact on
                               the Allowability of Costs Claimed by
                               and Reimbursed to DynMcDermott
                               Petroleum Operations Company Under
                               Department of Energy Contract No.
                               DE-AC96-93PO18000
REPORTS ISSUED




                 OAS-V-03-10 Assessment of Changes to the Internal               07-14-03     $1,131,434
                               Control Structure and Their Impact on
                               the Allowability of Costs Claimed by
                               and Reimbursed to Sandia Corporation
                      The OIG’s Audit Followup Action:
                               Under Department of Energy Contract
                               No. DE-AC04-94AL85000
                      • OIG recommended corrective actions agreed to by the Department
                 OAS-V-03-11 Assessment of Changes to the Internal               08-28-03
                         are tracked by the Department until complete.
                               Control Structure and Their Impact on
                               the Allowability of Costs Claimed by
                      • The OIG    follows up on all Department nonconcurrences with OIG
                               and Reimbursed to Battelle-Pacific
                         report recommendations.
                               Northwest National Laboratory Under
                      • When Department        of Energy Contract No.
                               the Department and the OIG disagree, the Department must
                               DE-AC06-76RL01830
                         prepare a Management Decision describing its position and any
                 OAS-V-03-12   Assessment
                         alternative action. of Changes to the Internal          08-28-03
                               Control Structure and Their Impact on
                      • The Department’s
                               the Allowability     of Management,
                                            Office of  Costs Claimed    by and Evaluation/
                                                                    Budget
                               and Reimbursed
                         Chief Financial            to UT-Battelle,
                                          Officer reviews            LLCDecisions and may
                                                          the Management
                         convene  a meeting
                               Under         of the Departmental
                                        Department     of EnergyInternal
                                                                  ContractControl and Audit
                         ReviewNo.
                                Council  (DICARC) to achieve mutually agreeable resolution.
                                     DE-AC05-00OR22725
                 OAS-V-03-13 Assessment of Changes to the Internal               08-29-03
                               Control Structure and Their Impact on
                               the Allowability of Costs Claimed by
                               and Reimbursed to Honeywell Federal
                               Manufacturing and Technologies, LLC
                               Under Department of Energy Contract
                               Nos. DE-AC04-76DP00613 and
                               DE-AC04-01AL66850

                 OAS-V-03-14 Review of the Single Audit Report of               09-08-03
                             the Jacksonville Electric Authority
                             Under U.S. Department of Energy
                             Cooperative Audit Agreement No.
                             DE-FC21-90MC27403




                                                                                                     47
                  OAS-V-03-15 Assessment of Changes to the Internal    09-17-03
                              Control Structure and Their Impact on
                              the Allowability of Costs Claimed by
                              and Reimbursed to the Westinghouse
                              Savannah River Company Under
                              Department of Energy Contract No.
                              DE-AC09-96SR18500
                  OAS-V-03-16 Assessment of Changes to the Internal    09-17-03
                              Control Structure and Their Impact on
                              the Allowability of Costs Claimed by
                              and Reimbursed to Oak Ridge Associ-
                              ated Universities Under Department of
                              Energy Contract Numbers DE-AC05-
 REPORTS ISSUED




                              76OR00033 and DE-AC05-00OR22750
                              for Fiscal Years 2000 through 2002




                  OAS-V-03-17 Assessment of Changes to the Internal    09-29-03
                              Control Structure and Their Impact on
                              the Allowability of Costs Claimed by
                              and Reimbursed to Bechtel Jacobs
                              Company LLC Under Department of
                              Energy Contract No. DE-AC05-
                              98OR22700

                  OAS-V-03-18 Review of the Independent Auditors’      09-30-03
                              Report on Princeton University for the
                              Year Ended June 30, 2002



                  CR-FC-03-03 Uranium Enrichment Decontamination       08-21-03
                              and Decommissioning Fund's Fiscal
                              Year 2002 Financial Statement Audit



                  CR-FC-03-04 Western Area Power Administration        06-10-03
                              Fiscal Years 2002 and 2001 Combined
                              Financial Statement Audit




48
                                              INSPECTION REPORTS ISSUED
                                                 April 1, 2003, to September 30, 2003*

                         REPORT
                                                                      TITLE                                DATE OF ISSUE
                         NUMBER
                          IG-0593        Inspection Report on “Concerns Related to the Office of              04-01-03
                                         International Material Protection and Emergency Cooperation”
                       INS-L-03-06       Letter Report on “Inspection of Explosives Security at Selected      04-03-03
                                         Department of Energy Sites”
                          IG-0597        Interim Inspection Report on “Inspection of Internal Controls        04-25-03
                                         Over Personal Computers at Los Alamos National Laboratory”
                       INS-L-03-07       Letter Report on “Inspection of Status of Recommendations            05-28-03
REPORTS ISSUED




                                         from the Office of Inspector General’s March 2000 and
                                         December 2001 Export Control Reviews”
                          IG-0604        Report on “Inspection of Savannah River Operations Office            06-02-03
                                         Management of Emergency Response and Law Enforcement-
                                         Related Grants”
                          IG-0605        Inspection Report on “National Nuclear Security                      06-05-03
                                         Administration’s Ability to Meet the Aircraft Requirements of
                                         the Joint Technical Operations Team”
                       INS-L-03-08       Letter Report on “Internal Controls Over Firearms at the             07-29-03
                                         Savannah River Site”
                       INS-L-03-09       Letter Report on “Inspection of Internal Controls Over Laptop        07-29-03
                                         and Desktop Computers at the Savannah River Site”
                          IG-0615        Inspection Report on “Oversight of Shock Sensitive Chemicals         08-11-03
                                         at the Department’s Ames Laboratory”
                       INS-L-03-10       Letter Report on Inspection of “Alleged Missing Documents            08-11-03
                                         from the Los Alamos National Laboratory Library”
                          IG-0619        Inspection Report on “The Security Afforded Selected Tritium         09-16-03
                                         Reservoir Shipments (U).” Classified Report
                          IG-0621        Inspection Report on “Firearms Internal Controls at the              09-25-03
                                         Lawrence Livermore National Laboratory”

                 *Does not include non-public reports.




                               OFFICE OF SPECIAL INQUIRIES REPORTS ISSUED
                                                         April 1, 2003, to September 30, 2003

                         REPORT
                                                                     TITLE                                 DATE OF ISSUE
                         NUMBER

                         IG-0610         Special Inquiry - FERC Communications                                6-27-03



                                                                                                                         49
                                               AUDIT REPORT STATISTICS
                                               April 1, 2003, to September 30, 2003
                              The following table shows the total number of operational and financial audit reports,
                                               and the total dollar value of the recommendations.


                                               TOTAL            ONE TIME             RECURRING                TOTAL
                                              NUMBER            SAVINGS               SAVINGS                SAVINGS

              Those issued before the
              reporting period for which         12           $3,706,115,011          $90,113,550         $3,796,228,561
              no management decision
              has been made*

              Those issued during the            49            $403,376,468                $0              $403,376,468
              reporting period
 STATISTICS




              Those for which a
              management decision was            28            $526,020,069           $41,264,000          $567,284,069
              made during the reporting
              period *

              Agreed to by management                          $347,315,524           $20,000,000          $367,315,524

              Not agreed to                                     $61,888,671                $0              $61,888,671
              by management

              Those for which a
              management decision is             23             $1,131,434                 $0               $1,131,434
              not required

              Those for which no
              management decision had
              been made at the end of            10           $3,700,287,284          $70,113,550         $3,770,400,834
              the reporting period*


              *The figures for dollar items include sums for which management decisions on the savings were
               deferred.




                Additional information on the OIG, including the full text of its public reports and Department
50              management’s comments, can be found on the OIG website – www.ig.doe.gov.
                                             AUDIT REPORT STATISTICS
                                             April 1, 2003, to September 30, 2003
                        The following table shows the total number of contract audit reports, and the total
                                    dollar value of questioned costs and unsupported costs.


                                                      TOTAL             QUESTIONED               UNSUPPORTED
                                                     NUMBER               COSTS                     COSTS

             Those issued before the reporting
             period for which no management               4                $4,436,951                  $84,241
             decision has been made

             Those issued during the reporting
             period                                       0                    $0                         $0
STATISTICS




             Those for which a management
             decision was made during the                 0                    $0                         $0
             reporting period


             Value of disallowed costs                                         $0                         $0

             Value of costs not disallowed                                     $0                         $0

             Those for which a management
             decision is not required                     0                    $0                         $0

             Those for which no management
             decision had been made at the end            4                $4,436,951                  $84,241
             of the reporting period




                                                                                                                 51
              REPORTS LACKING MANAGEMENT DECISION
              The following are audit reports issued before the beginning of the reporting
              period for which no management decisions had been made by the end of the
              reporting period. The reasons management decisions had not been made
              and the estimated dates (where available) for achieving management
              decisions are also included. These audit reports are over 6 months old
              without a management decision. The Department has a system in place
              which tracks audit reports and management decisions. Its purpose is to
              ensure that recommendations and corrective actions indicated by audit
              agencies and agreed to by management are addressed and effected as
              efficiently and expeditiously as possible.

              The Contracting Officers have not yet made decisions on the following
 STATISTICS




              contract reports. The reasons for not doing so included: (1) the delaying of
              settlement of final costs questioned in audits pending completion of review
              of work papers; (2) voluminous additional records; (3) additional work by
              the Defense Contract Audit Agency; and (4) completion of certain legal and
              contractual investigations.

              WR-C-95-01            Independent Final Audit of Contract No.
                                    DE-AC34-RIRF00025, July 26, 1990, to March 31,
                                    1993, Wackenhut Services, Inc., Golden, Colorado,
                                    March 14, 1999
                                    (Estimated date of closure: March 31, 2004)

              ER-C-97-01            Report on Interim Audit of Costs Incurred Under
                                    Contract No. DE-AC24-92OR219721 from
                                    October 1, 1994, to September 30, 1995, Fernald
                                    Environmental Restoration Management Corporation,
                                    Fernald, Ohio, December 20, 1996
                                    (Estimated date of closure: December 31, 2003)

              ER-C-00-03            Interim Audit of Thomas Jefferson National
                                    Accelerator Facility Costs Incurred Under Contract
                                    No. DE-AC05-84ER40150 Fiscal Years 1994
                                    Through 1999
                                    (Estimated date of closure: November 30, 2003)

              OAS-C-03-01           Final Audit of Princeton University’s Costs Claimed
                                    for National Aeronautics and Space Administration
                                    Contract NAS5-96021, November 18, 2002
                                    (Estimated date of closure: March 31, 2004)

52
             Additional time was necessary to develop management decisions for the
             following reports. Further explanations for the delays follow each audit
             report.

             CR-B-99-02            Management of Unneeded Material and Chemicals,
                                   September 30, 1999

                                   Implementation/action plan and Management
                                   Decision brief to be provided to the Under
                                   Secretary for Energy, Science and Environment and
                                   the Under Secretary for Nuclear Security/
                                   Administrator for National Security Administration
                                   by December 31, 2003.
STATISTICS




             IG-0540               Advanced Radioisotope Power Systems Program,
                                   January 14, 2002

                                   The finalization of the Management Decision is
                                   pending the resolution of complex issues. This is
                                   expected to occur by December 30, 2003.

             IG-0545               Cyber-Related Critical Infrastructure Identification
                                   and Protection Measures, March 20, 2002

                                   The finalization of the Management Decision on
                                   this report is awaiting review and mandatory
                                   concurrence by several organizations. It is
                                   expected that this will occur December 31, 2003.

             IG-0565               Salt Processing Project at the Savannah River Site,
                                   August 27, 2002

                                   The finalization of the Management Decision on
                                   this report is pending the resolution of one
                                   outstanding legal issue. This should occur by
                                   March 31, 2004.




                                                                                          53
                                             INVESTIGATIVE STATISTICS
                                              April 1, 2003, to September 30, 2003

              Investigations open at the start of this reporting period                                    222
              Investigations opened during this reporting period                                            84

              Investigations closed during this reporting period                                            66

              Investigations open at the end of this reporting period                                      240

              Qui Tam investigations opened                                                                  3

              Total open Qui Tam investigations as of 09/30/03                                              24

              Multi-agency task force investigations opened                                                 21
 STATISTICS




              Total open multi-agency task force investigations as of 09/30/03                              91

              Investigative reports to prosecutors and Department management                                10

              Recommendations to management for positive change and other actions                           15

              Administrative discipline and other management actions                                        22

              Suspensions/Debarments                                                                         7

              Investigations referred for prosecution                                                       22

              Accepted*                                                                                     17

              Indictments                                                                                   14

              Criminal convictions                                                                          10

              Pretrial diversions                                                                            0

              Civil actions                                                                                  7

              Fines, settlements, recoveries**                                                       $1,378,054.02

              *Some of the investigations appearing during the 6-month period were referred for prosecution during
              a previous reporting period.

              **Some of the money collected was the result of task force investigations.




54
                                               INSPECTION STATISTICS
                                             April 1, 2003, to September 30, 2003

             Inspections open at the start of this reporting period                               54
             Inspections opened during this reporting period                                      26

             Inspections closed during this reporting period                                      17

             Inspections open at the end of this reporting period                                 63

             Reports issued (includes non-public reports)                                         15

             Inspection Recommendations

                    Accepted this reporting period                                                30
STATISTICS




                    Implemented this reporting period                                             29

             Complaints referred to Department management/others                                  119

                    Referrals to Department management requesting a response for OIG evaluation   40




                                                  HOTLINE STATISTICS
                                             April 1, 2003, to September 30, 2003

             Hotline calls, e-mails, letters, and other complaints                                 572

             Hotline calls, e-mails, letters, and other complaints predicated                      239

             Unresolved Hotline predications from previous reporting periods                        20

                Total Hotline predications                                                         259

             Hotline predications transferred to the Management Referral System                    148

             Hotline predications closed based upon preliminary OIG activity                        94

             Hotline predications pending disposition                                               17

                Total predications processed                                                       259




                                                                                                         55
                    FEEDBACK SHEET

     The contents of the October 2003 Semiannual Report to
     Congress comply with the requirements of the Inspector
     General Act of 1978, as amended. However, there may be
     additional data which could be included or changes in
     format which would be useful to recipients of the Report.
     If you have suggestions for making the Report more
     responsive to your needs, please complete this feedback
     sheet and return it to:

                        Department of Energy
                  Office of Inspector General (IG-1)
                      Washington, D.C. 20585

                  ATTN: Jacqueline Becker



     Your name:

     Your daytime telephone number:

     Your suggestion for improvement: (Please attach
     additional sheets if needed.)




56
